June 2, 2020
Mr. Scott Harris
Clerk of Court
Supreme Court of the United States
One First St., NE
Washington, DC 20543
Re. No. 19-547, U.S. Fish & Wildlife Serv. v. Sierra Club
Dear Mr. Harris:
On behalf of respondent Sierra Club in the above-captioned case, I hereby
consent to the filing of any briefs of amici curiae in support of either party or
neither party, submitted within the time allowed by this Court’s rules.
Sincerely,

Sanjay Narayan
Counsel for Respondent
cc:

Noel J. Francisco, Solicitor General
Counsel of Record for Petitioners

